  DEPARTMENT OF HOMELAND SECURITY
                 OR O FIC A USE ONLY




      Office of Inspector General


   The State of Utah’s Management of State 

  Homeland Security Grants Awarded During 

       Fiscal Years 2004 through 2006 





OIG 08-83                              August 2008
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                       August 14, 2008

                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The attached report presents the results of the audit of the State of Utah’s Management of
State Homeland Security Grants awarded during Fiscal Years 2004 through 2006. We
contracted with the independent public accounting firm Williams, Adley & Company to
perform the audit. The contract required that Williams, Adley & Company perform its
audit according to generally accepted government auditing standards. Williams, Adley &
Company’s report identifies two reportable conditions where State management of the
grant funds could be improved, resulting in two recommendations addressed to the
Administrator, Federal Emergency Management Agency. Williams, Adley & Company
is responsible for the attached auditor’s report dated June 20, 2008, and the conclusions
expressed in the report.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.




                                       Richard L. Skinner 

                                       Inspector General 

                   Williams, Adley & Company, LLP
Certified Public Accountants/Management Consultants


June 20, 2008

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W., Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Williams, Adley & Company, LLP performed an audit of the State of Utah’s
Management of the Department of Homeland Security’s State Homeland Security Grants
for Fiscal Years 2004 through 2006. The audit was performed in accordance with our
Task Order No. TPD-FIG-BPA-07-0013, September 25, 2007. This report presents the
results of the audit and includes recommendations to help improve the State’s
management of the audited State Homeland Security Grant Programs.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2003 revision. The audit was a performance audit as defined by Chapter 2 of the
Standards and it included a review and report of program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of Utah’s financial statements or the funds claimed in the Financial Status Reports
submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (202) 371-1397.

Sincerely,

Williams, Adley & Company, LLP




Charbet M. Duckett
Partner
Table of Contents/Abbreviations

Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 6 


    Untimely Allocation of Grant Funds to Subgrantees .................................................... 6 

    Recommendation .......................................................................................................... 8 

    Management Comments and Auditor’s Analysis ......................................................... 8 


    Untimely Submission of Financial Status Reports ....................................................... 9 

    Recommendation ........................................................................................................ 10

    Management Comments and Auditor’s Analysis ....................................................... 10 



Appendices
    Appendix A:           Objectives, Scope, and Methodology .................................................. 11 

    Appendix B:           Organization Chart .............................................................................. 14 

    Appendix C:           Management Comments to the Draft Report ...................................... 15 

    Appendix D:           Report Distribution .............................................................................. 18 



Abbreviations
     DHS                  Department of Homeland Security 

     OIG                  Office of Inspector General 

     FEMA                 Federal Emergency Management Agency 

     FY                   Fiscal Year           

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                  Williams, Adley & Company, LLP completed an audit of the
                  Department of Homeland Security State Homeland Security Grants
                  awarded to the State of Utah during Fiscal Years 2004 through
                  2006. The objectives of the audit were to determine whether the
                  State Administrative Agency (1) effectively and efficiently
                  implemented the state homeland security grants programs,
                  (2) achieved the goals of the programs, and (3) spent funds in
                  accordance with grant requirements. The audit included a review
                  of approximately $55.6 million awarded by the Federal Emergency
                  Management Agency to the State of Utah.

                  Overall, the State Administrative Agency did an efficient and
                  effective job of administering the program requirements,
                  distributing grant funds, and ensuring that all available funds were
                  used. The State used reasonable methodologies for assessing
                  threat, vulnerability, capability, and prioritized needs. The State
                  measured improved preparedness, complied with cash
                  management requirements, and generally spent the grant funds in
                  accordance with requirements and State-established priorities. The
                  State appropriately allocated funding based on threats,
                  vulnerabilities, capabilities, and priorities, and the procurement
                  methodology conformed to the State’s strategy. The State’s
                  monitoring program policies and procedures were effective and
                  should be considered for sharing with other states.

                  However, the State did not ensure that grant funds were allocated
                  in accordance with the 60-day requirements, and did not submit
                  financial status reports in a timely manner. The recommendations
                  call for the Administrator, Federal Emergency Management
                  Agency, to require the State to review the allocation process to
                  meet the 60-day requirement, and to revise the Financial Status
                  Reports preparation process to meet the 30-day requirement.

                  Federal Emergency Management Agency officials provided verbal
                  concurrences with the recommendations, while State of Utah
                  officials only concurred with the recommendation concerning
                  Financial Status Reports. State officials also provided a written
                  response to the recommendations, included as Appendix C.

             The State of Utah’s Management of State Homeland Security Grants

                       Awarded During Fiscal Years 2004 through 2006 


                                          Page 1 

Background
              The Homeland Security Grant Program is a federal assistance grant
              program administered by the U.S. Department of Homeland
              Security (DHS), Grant Programs Directorate within the Federal
              Emergency Management Agency (FEMA). The current Grant
              Programs Directorate, hereafter referred to as FEMA, began with
              the Office of Domestic Preparedness, which was transferred from
              the Department of Justice to DHS in March 2003. The Office of
              Domestic Preparedness was subsequently consolidated into the
              Office of State and Local Government Coordination and
              Preparedness which, in part, became the Office of Grants and
              Training, and which subsequently became part of the FEMA.

              Although the grant program was transferred to DHS, applicable
              Department of Justice grant regulations and legacy systems still
              were used as needed to administer the program. For example, the
              State Administrative Agency entered payment data into the Office
              of Justice Programs’ Phone Activated Paperless Request System,
              which was a drawdown payment system for grant funds.

              Homeland Security Grant Programs

              The Homeland Security Grant Program provides federal funding to
              help state and local agencies enhance their capabilities to prevent,
              deter, respond to, and recover from threats or acts of terrorism.
              The Homeland Security Grant Program encompasses several
              different federal grant programs, and depending on the fiscal year,
              included some or all of the following programs: State Homeland
              Security Grant Program, Law Enforcement Terrorism Prevention
              Program, Citizen Corps Program, Urban Areas Security Initiative,
              Metropolitan Medical Response System Program Grants, and
              Emergency Management Performance Grants.

              State Homeland Security Grant Program provides financial
              assistance directly to each of the states and territories to prevent,
              respond to, and recover from acts of terrorism. The program
              supports the implementation of the State Homeland Security
              Strategy to address the identified planning, equipment, training,
              and exercise needs.

              Law Enforcement Terrorism Prevention Program provides law
              enforcement communities with funds to support the following
              prevention activities: information sharing to preempt terrorist
              attacks, target hardening to reduce vulnerability of selected high
              value targets, recognition and mapping of potential or developing

         The State of Utah’s Management of State Homeland Security Grants

                   Awarded During Fiscal Years 2004 through 2006 


                                      Page 2 

     threats, counterterrorism and security planning, interoperable
     communications, interdiction of terrorists before they can execute
     a threat, and intervention activities that prevent terrorists from
     executing a threat. These funds may be used for planning,
     organization, training, exercises, and equipment.

     Citizen Corps Program is the department’s grass-roots initiative
     to actively involve all citizens in hometown security through
     personal preparedness, training, and volunteer service. Funds are
     used to support Citizen Corps Councils with efforts to engage
     citizens in preventing, preparing for, and responding to all hazards,
     including planning and evaluation, public education and
     communication, training, participation in exercises, providing
     proper equipment to citizens with a role in response, and
     management of Citizen Corps volunteer programs and activities.

     Urban Areas Security Initiative provides financial assistance to
     address the unique planning, equipment, training, and exercise
     needs of high risk urban areas, and to assist them in building an
     enhanced and sustainable capacity to prevent, respond to, and
     recover from threats or acts of terrorism. Allowable costs for the
     urban areas are consistent with the State Homeland Security
     Program, and funding is expended based on the Urban Area
     Homeland Security Strategies.

     Metropolitan Medical Response System Program supports
     jurisdictions in further enhancement and sustainment of their
     integrated, systematic mass casualty incident preparedness to
     respond to mass casualty events during the first hours of a
     response. This includes the planning, organizing, training, and
     equipping concepts, principles, and techniques, which enhance
     local jurisdictions’ preparedness to respond to the range of mass
     casualty incidents – from chemical, biological, radiological,
     nuclear, and explosive events to epidemic outbreaks, natural
     disasters, and large-scale hazardous materials incidents.

     Emergency Management Performance Grant funds are used to
     support comprehensive emergency management at the state and
     local levels and to encourage the improvement of mitigation,
     preparedness, response, and recovery capabilities for all hazards.
     DHS is responsible for leading and supporting the nation in a
     comprehensive, risk-based, all-hazards emergency management
     program, and these performance grant funds are a primary means
     of ensuring the development and maintenance of such a program.


The State of Utah’s Management of State Homeland Security Grants

          Awarded During Fiscal Years 2004 through 2006 


                             Page 3 

     Funds may also be used to support activities for managing
     consequences of acts of terrorism.

     State Administrative Agency

     State governors appoint a State Administrative Agency to
     administer the Homeland Security Grant Program. The State
     Administrative Agency is responsible for managing these grant
     programs in accordance with established federal guidelines. The
     State Administrative Agency is also responsible for allocating
     funds to local, regional, and other state government agencies.

     In 1999, the Governor of Utah issued an Executive Order to
     address and respond to the risk of emergency or disaster that could
     result from terrorism or terrorist use of weapons of mass
     destruction. This Order identified the Division of Emergency
     Services and Homeland Security, currently called the Division of
     Homeland Security, within the Department of Public Safety, as the
     designated single point of contact.

     The Division of Homeland Security administers and oversees
     FEMA federal grant programs awarded to the State, for all offices
     as demonstrated and accomplished through the state assessment
     process. In direct support of the Division of Homeland Security,
     an Office of Domestic Preparedness Grant Advisory Board was
     created to represent local jurisdictions, state, federal, and tribal
     governments. The Advisory Board includes representatives from
     functional response areas, including law enforcement, fire services,
     emergency management, public health and emergency medical
     services, health care, hazardous materials, public safety
     communications, public works, transportation, agriculture,
     environmental quality, the military, and various other agencies.
     The Division of Homeland Security’s organizational structure is
     depicted in the organizational chart in Appendix B.

     Grant Funding

     The State of Utah received approximately $55.6 million in funds
     from the Homeland Security Grant Program during Fiscal Years
     (FY) 2004 through 2006. During that same timeframe, the
     Division of Homeland Security awarded subgrants to 29 counties
     within 7 Regions, in addition to the Explosive Ordinance Team
     (8 Bomb Squads). The first responders used the grant funds
     primarily to purchase equipment for law enforcement, fire rescue,
     medical emergency, and other personnel.

The State of Utah’s Management of State Homeland Security Grants

          Awarded During Fiscal Years 2004 through 2006 


                             Page 4 

     Table 1 displays a breakdown of the grant funds by year and
     funded activity. Note that not all funded activities were part of the
     Homeland Security Grant Program during each of the fiscal years.

                                            Table 1
                              Utah Homeland Security Grant Awards
                                 Fiscal Years 2004 through 2006
                                     Grant Programs (‘000s)

                                   2004           2005           2006
                                Homeland       Homeland       Homeland
         Funded Activity         Security       Security       Security      Total
                                  Grant          Grant          Grant
                                Program        Program        Program
       State Homeland
       Security Grant           $ 20,518       $ 13,046       $     4,520    $ 38,084
       Program
       Law Enforcement
       Terrorism Protection     $   6,089      $   4,744      $     3,280    $ 14,113
       Program
       Citizen Corps
                                $     426      $      166     $       239    $    831
       Program
       Metropolitan Medical
                                      Not
       Response System                         $      228     $       232    $    460
                                 Included
       Program
       Urban Areas Security           Not
                                               $        0     $         0    $       0
       Initiative                Included
       Emergency
                                      Not                              Not
       Management                              $   2,125                     $   2,125
                                 Included                         Included
       Performance Grant

              Total             $ 27,033       $ 20,309       $     8,271    $ 55,613



     Williams, Adley & Company completed an audit of the State of
     Utah’s Management of DHS’ FYs 2004 through FY 2006 State
     Homeland Security Grant Programs. The objectives of the audit
     were to determine whether the State Administrative Agency
     (1) effectively and efficiently implemented State Homeland
     Security grant programs, (2) achieved the goals of the programs,
     and (3) spent funds in accordance with grant requirements. The
     goal of the audit was to identify problems and solutions that would
     help the State of Utah prepare for and respond to terrorist attacks.
     Nine researchable questions provided by the DHS Office of
     Inspector General (OIG) established the framework for the audit.
     The researchable questions were related to the State Administrative
     Agency’s planning, management, and results evaluations of grant
     activities. Appendix A provides additional details on the


The State of Utah’s Management of State Homeland Security Grants

          Awarded During Fiscal Years 2004 through 2006 


                               Page 5 

                 objectives, scope, and methodology of this audit, including the
                 nine researchable questions.

                 Although this audit included a review of some of the costs claimed
                 with grant funds, we did not perform a financial audit of those
                 costs. Accordingly, we do not express an opinion on the State of
                 Utah’s financial statements or the funds claimed in the Financial
                 Status Reports submitted to FEMA.

Results of Audit
                 Overall, the State Administrative Agency did an efficient and
                 effective job of administering the program requirements,
                 distributing grant funds, and ensuring that all of the available funds
                 were used. The Division of Homeland Security used reasonable
                 methodologies for assessing threat, vulnerability, capability, and
                 prioritized needs. The Division of Homeland Security measured
                 improved preparedness, complied with cash management and
                 status reporting requirements, and generally spent the grant funds
                 in accordance with grant requirements and State-established
                 priorities. In addition, the Division appropriately allocated funding
                 based on threats, vulnerabilities, capabilities, and priorities
                 although the State’s allocation procedures delayed the allocation of
                 grant funds to subgrantees. The procurement methodology was in
                 conformance with the State’s strategy. The Division’s subgrantee
                 monitoring program policies and procedures were effective and
                 should be considered by FEMA for sharing with other states.

                 However, as demonstrated by the findings in this report, the State
                 Administrative Agency did not ensure that:

                 •	 Grant funds were allocated in accordance with the 60-day
                    requirements.
                 •	 Financial Status Reports for FYs 2004 through FY 2006 grants
                    were submitted timely.

     Untimely Allocation of Grant Funds to Subgrantees
                 The State did not allocate subgrantee grant funds to the regions
                 within the required 60 days after the grant was awarded by FEMA
                 for FYs 2004 through FY 2006. This occurred because the Utah
                 Department of Public Safety, Division of Homeland Security’s
                 process for allocating grant funds to subgrantees is untimely.



            The State of Utah’s Management of State Homeland Security Grants

                      Awarded During Fiscal Years 2004 through 2006 


                                         Page 6 

     According to the 2004 State Homeland Security Grant Program
     Guidelines and Application Kit V. Application, Award and
     Submission Requirements Section B. Grant Award to State, upon
     approval of the electronic grant application through the Grants
     Management System and approval of the State Homeland Security
     Strategy, the grant will be awarded to the respective State
     Administrative Agency. This date will be known as the award
     date. The State’s 60-day obligation period must be met within
     60 days of the award date. Similar guidance can be found in the
     FY 2005 and FY 2006 State Homeland Security Grant Program
     Guidelines.

     For the FYs 2004 through 2006 State Homeland Security Grant
     Programs, the State of Utah Department of Public Safety, Division
     of Homeland Security did not follow the guidelines for allocating
     the funds to the regions within 60 days after the funds had been
     obligated by FEMA. For FY 2004, the funds were allocated
     between 58 to 104 days, with an average of 82 days. The State met
     the requirement for only one county. For FY 2005 the funds were
     allocated an average of 77 days, ranging from 69 to 133 days. For
     FY 2006, the funds were allocated an average of 100 days, ranging
     from 56 to 262 days. Only two counties were allotted their funds
     within 60 days in FY 2006.

                                        Table 2
                         State Allocation of Grant Funds
                          Allocations of      Range of Days         Average #
        Fiscal Year
                          Funds within           Funds                Days
       Grant Award
                             60 days            Allocated           Allocated
          FY 2004                 1               58 to 104            82
          FY 2005                 0               69 to 133            77
          FY 2006                 2               56 to 262           100

     Although FEMA announces the amounts to be granted to each
     state several months in advance of the grant award, the State’s
     process of allocating funds to the regions does not begin until after
     the award is issued. At that time, the State provides the amount
     allotted to the regions and requests that the regions provide a
     budget justification, indicating how they will spend the
     State-allotted amount. The budget justification, which is sent to
     the State for approval and signature, provides the basis for the
     allocation/obligation. If approved, the director signs the
     allocation/obligation document, which is then forwarded to each

The State of Utah’s Management of State Homeland Security Grants

          Awarded During Fiscal Years 2004 through 2006 


                             Page 7 

      region in duplicate. Each region signs both copies and returns one
      to the State. Funds are now available to be expended by the
      regions, and suballocated to the counties as appropriate.

      Allocation of the grant funds to the regions later than the intended
      deadline delays the regions from obtaining the equipment, training,
      planning, or exercises they may need. We also noted that in 2006
      the grant award process required additional justification prior to
      receiving funding, unlike previous years where the States knew
      their estimated grant funding amount prior to the award. The
      nature of the 2006 grant would make preplanning more difficult
      but even more essential to the timely distribution of grant funds to
      the subgrantees.

Recommendation
      Recommendation #1: We recommend that the Administrator,
      Federal Emergency Management Agency, require the Utah
      Department of Public Safety, Division of Homeland Security to
      review its process for allocating funds to subgrantees to identify
      areas in the process which can be accelerated. An accelerated
      process will ensure that when an award is issued, the
      documentation required for funds allocation can be processed
      quickly to comply with the 60-day requirement.

Management Comments and Auditor’s Analysis
      We received verbal concurrence on the recommendation from
      FEMA officials. The State Administrative Agency officials did
      not concur with the recommendation. In their written comments,
      the State officials said that they were following the instructions
      from the Department of Homeland Security that the Initial
      Strategic Implementation Plan report satisfies the congressionally
      mandated 60-day obligation requirement.

      We contend that the State’s interpretation of the guidance related
      to the Initial Strategic Implementation Plan is not relevant to the
      scope of this audit, which covers FYs 2004 through 2006 of the
      State Homeland Security Grant Programs. The State provided us
      with the Federal Emergency Management Agency: Frequently
      Asked Questions Grant Reporting Tool March 2008 to support its
      stance on this matter. Upon review of this document, we
      determined that the guidance (1) was issued after the audit period
      and (2) does not accurately define the term “obligation” in terms of
      meeting the 60-day requirement. Therefore, we maintain that the

 The State of Utah’s Management of State Homeland Security Grants

           Awarded During Fiscal Years 2004 through 2006 


                              Page 8 

            State did not fulfill the 60-day pass-through requirement, as
            required by the Homeland Security Grant Program - Program
            Guidelines and Application Kits for FYs 2004, 2005, and 2006.

            The Administrator, Federal Emergency Management Agency,
            needs to provide corrective actions and a plan to implement these
            actions within 90 days.

Untimely Submission of Financial Status Reports
            The Utah Department of Public Safety, Division of Homeland
            Security, did not submit 6 of 29 Financial Status Reports within the
            45-day requirement for FY 2004 and FY 2005 State Homeland
            Security Grant Programs, and within the 30-day requirement for
            the FY 2006 State Homeland Security Grant Program. The
            Financial Manager for the Department of Public Safety did not
            effectively manage the change in submission date requirements
            during FY 2006 for the State Homeland Security Grant Programs.

            The FY 2004 and FY 2005 State Homeland Security Grant
            Program Guidance and Application Kit require the Financial Status
            Reports to be submitted within 45 days of the end of the quarter.

            According to FY 2006 State Homeland Security Grant Program
            Guidance and Application Kit section C.1, obligations and
            expenditures must be reported on a quarterly basis through the
            Financial Status Report, which is due within 30 days of the end of
            each calendar quarter. The guidance explicitly notes that this was
            a change from previous fiscal years. A report must be submitted
            for every quarter the award is active, including partial calendar
            quarters, as well as for periods where no grant activity occurs.
            Future awards and fund drawdowns will be withheld if these
            reports are delinquent.

            As shown in Table 3, 6 of 29 Financial Status Reports tested were
            submitted late, ranging from 3 to 23 days after the due date. One
            report was submitted late for each of the FY 2004 and FY 2005
            grant years; the other four late reports were for the FY 2006 grants,
            for which the reporting requirement changed to 30 days.




       The State of Utah’s Management of State Homeland Security Grants

                 Awarded During Fiscal Years 2004 through 2006 


                                    Page 9 

                                          Table 3
                    State Submission of Financial Status Reports
                             Reports            Reports
         Fiscal Year                                                 Days Reports
                           Submitted By      Submitted After
        Grant Award                                                    Delayed
                            Due Dates          Due Dates
           FY 2004             13                  1                      8
           FY 2005               11                   1                   8
           FY 2006                5                   4                 3 to 23
      During 2007, the ongoing grants from FY 2004, FY 2005, and
      FY 2006 had different reporting requirements, which increased the
      opportunity for confusion and misinterpretation of the
      requirements. Additionally, the Utah Department of Public Safety,
      Division of Homeland Security, did not revise its procedures to
      effectively and consistently meet the new 30-day requirement. The
      process remained focused on the 45-day requirement.

      As a result, the Federal Emergency Management Agency’s ability
      to effectively and efficiently monitor the State Homeland Security
      Grant Program expenditures for the State of Utah was hampered by
      the untimely submission of the Financial Status Reports as shown
      in Table 3 above. Also, delays in financial reporting could result
      in delays in drawing down funds, since funds will be withheld until
      reports are submitted.

Recommendation
      Recommendation #2: We recommend that the Administrator,
      Federal Emergency Management Agency, require the Utah
      Department of Public Safety, Division of Homeland Security, to
      revise its Financial Status Report procedures to accommodate the
      30-day timeframe for submission.

Management Comments and Auditor’s Analysis
      We received verbal concurrences on the recommendation from
      FEMA officials. The State Administrative Agency officials also
      concurred with the recommendation. In their written comments,
      the State officials said they have revised their procedures to
      accommodate the 30-day time frame for submission of the
      Financial Status Report.




 The State of Utah’s Management of State Homeland Security Grants

           Awarded During Fiscal Years 2004 through 2006 


                             Page 10 

     We agree that this action addresses the intent of the
     recommendation. As such, this recommendation is now resolved
     and closed.




The State of Utah’s Management of State Homeland Security Grants

          Awarded During Fiscal Years 2004 through 2006 


                            Page 11 

Appendix A
Objectives, Scope, and Methodology


                    The purpose of the audit was to determine whether the State of
                    Utah effectively and efficiently implemented the state homeland
                    security grant program, achieved the goals of the program, and
                    spent funds according to grant requirements. The goal of the audit
                    was to identify problems and solutions that would help the State of
                    Utah prepare for and respond to terrorist attacks. The audit further
                    enabled us to answer the following researchable questions:

                    	 Did the State use reasonable methodologies for assessing
                       threat, vulnerability, capability, and prioritized needs?

                    	 Did the State appropriately allocate funding based on threats,
                       vulnerabilities, capabilities, and priorities?

                    	 Has the State developed and implemented plans to measure
                       improvements in preparedness as a result of the grants and
                       have such measurement efforts been effective?

                    	 Are the State’s procurement methodologies (centralized, local,
                       or combination) reasonable and in conformance with its
                       homeland security strategies?

                    	 Does the State Administrative Agency have procedures in
                       place to monitor the funds and activities at the local level to
                       ensure that grant funds are spent according to grant
                       requirements and the State-established priorities? Have these
                       monitoring procedures been implemented and are they
                       effective?

                    	 Did the State comply with cash management requirements and
                       the DHS financial and status reporting requirements for the
                       grant programs and did local jurisdictions spend grant funds
                       advanced by the State in a timely manner and, if not, what
                       caused the delays?

                    	 Were grant funds used according to grant requirements and
                       State-established priorities?

                    	 Was the time it took the State to get funds/equipment to first
                       responders (from the time the funds/equipment were available
                       to the State until they were disbursed/provided to the
                       jurisdiction) reasonable (auditor judgment), and if not, what
                       caused the delays?


               The State of Utah’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 12 

Appendix A
Objectives, Scope, and Methodology

                    	 Are there best practices that can be identified and shared with
                       other states and the DHS?

                    The scope of the audit included the following grant programs,
                    described in the Background section of this report.

                    	 FY 2004 State Homeland Security Grant Program

                    	 FY 2005 State Homeland Security Grant Program

                    	 FY 2006 State Homeland Security Grant Program

                    The audit methodology included work at DHS Headquarters, State
                    of Utah offices responsible for the management of the grants, and
                    various subgrantee locations. To achieve our audit objective we
                    analyzed data, reviewed documentation, and interviewed the key
                    state and local officials directly involved in the management and
                    administration of the State of Utah’s Homeland Security Grant
                    Programs. We conducted 31 site visits and held discussions with
                    appropriate officials from 19 of the 29 counties representing 6 of 7
                    regions and 3 of 8 Explosive Ordinance Disposal Teams, in order
                    to determine if program grant funds were expended according to
                    grant requirements and State-established priorities.

                    We also conducted site visits to the following 31 first responders
                    and local jurisdictions:

                        Davis County Health Department
                        Salt Lake County Sheriff
                        Park City Fire Department
                        Bluffdale Fire Department
                        Layton City Fire Department
                        Layton City Police Department
                        Carbon County Special Weapons and Tactics
                        Carbon County Police Department
                        Emery County Sheriff
                        Grand County Sheriff
                        Grand County Emergency Management Service
                        Grand County-Spanish Valley Water
                        Iron County
                        Cedar City Fire Department
                        Juab County
                        Piute County
                        Piute County Hazardous Material Team
                        Saint George Bomb Squad

               The State of Utah’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 13 

Appendix A
Objectives, Scope, and Methodology

                        Saint George Police Department
                        Washington County
                        Provo Bomb Squad
                        Utah County Emergency Management Services
                        Davis County Narcotics
                        Sunset City Fire Department
                        Utah County Fire Department
                        Draper City Police
                        The Town of Alta
                        Jordan County Water Conservatory
                        Unified Fire Authority
                        Summit County Sheriff
                        Davis County Bomb Squad

                    At each location, we interviewed responsible officials, reviewed
                    documentation supporting the State and subgrantees management
                    of the awarded grant funds, and physically inspected
                    149 statistically-selected equipment procured with the grant funds.
                    We reviewed prior audit reports and coordinated our work with the
                    Department of Public Safety, Division of Homeland Security.

                    We conducted the audit between November 2007 and March 2008,
                    in accordance with Government Auditing Standards as prescribed
                    by the Comptroller General of the United States (Yellow Book-
                    2003 Revision). Although this audit included a review of costs
                    claimed, we did not perform a financial audit of those costs. This
                    was primarily a performance rather than a compliance audit
                    performed by a Department of Homeland Security, Office of
                    Inspector General contractor. We were not engaged to and did not
                    perform a financial statement audit, the objective of which would
                    be to express an opinion on specified elements, accounts, or items.
                    Accordingly, we were neither required to, nor expressed an
                    opinion on the costs claimed for the grant programs included in the
                    scope of the audit. Had we been required to perform additional
                    procedures, or conducted an audit of the financial statements in
                    accordance with generally accepted auditing standards, other
                    matters might have come to our attention that would have been
                    reported. This report relates only to the programs specified and
                    does not extend to any financial statements of the State of Utah.

                    While the audit work was performed and the report was prepared
                    under contract, the results are being reported by the DHS Office of
                    Inspector General to appropriate Federal Emergency Management
                    Agency officials and State of Utah officials.


               The State of Utah’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 14 

Appendix B
Organization Chart




              The State of Utah’s Management of State Homeland Security Grants

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 15 

Appendix C
Management Comments to the Draft Report




              The State of Utah’s Management of State Homeland Security Grants

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 16 

Appendix C
Management Comments to the Draft Report




              The State of Utah’s Management of State Homeland Security Grants

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 17 

Appendix C
Management Comments to the Draft Report




              The State of Utah’s Management of State Homeland Security Grants

                        Awarded During Fiscal Years 2004 through 2006 


                                          Page 18 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Deputy Administrator, National Preparedness Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison
                      National Preparedness Directorate Audit Liaison

                      Office of Management and Budget

                      Homeland Bureau Chief
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




               The State of Utah’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 19 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
